TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Office of Disclosure Continues to
                        Improve Compliance With the
                   Freedom of Information Act Requirements



                                          August 3, 2010

                              Reference Number: 2010-30-090




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


THE OFFICE OF DISCLOSURE                             research or simple oversight by Disclosure office
CONTINUES TO IMPROVE COMPLIANCE                      personnel. The IRS also did not properly adhere
WITH THE FREEDOM OF INFORMATION                      to the legal requirements under I.R.C. § 6103 in
ACT REQUIREMENTS                                     ****1**** of 247 cases) of the requests
                                                     TIGTA reviewed.
                                                     Since Fiscal Year 2000, the IRS has made
Highlights                                           significant improvement in responding timely to
                                                     FOIA and Privacy Act requests. In all FOIA and
Final Report issued on August 3, 2010                Privacy Act requests reviewed, a timely
                                                     response was provided. In our audits over the
Highlights of Reference Number: 2010-30-090          previous 10 years, the percentages of untimely
to the Internal Revenue Service Commissioner         responses ranged from 1.2 percent to 43.5
for the Small Business/Self-Employed Division.       percent. The increase in responsiveness may
                                                     be due, in part, to the continued decrease in the
IMPACT ON TAXPAYERS                                  numbers of FOIA and Privacy Act cases
The Internal Revenue Service (IRS) must              received during Fiscal Year 2009 compared to
ensure that the provisions of the Freedom of         Fiscal Year 2008 and the prior years this review
Information Act (FOIA), the Privacy Act, and         has been conducted.
Internal Revenue Code (I.R.C.) Section (§) 6103      WHAT TIGTA RECOMMENDED
are followed, particularly because errors can
violate taxpayer rights and result in improper       TIGTA did not make any recommendations in
disclosures of tax information.                      this report. However, a draft of the report was
                                                     provided to the IRS for review and comment.
WHY TIGTA DID THE AUDIT                              The IRS did not have any written comments in
TIGTA is required to conduct periodic audits to      response to the report.
determine if the IRS properly denied taxpayers’
written requests for tax account information.
TIGTA is also required to include the results in
one of our Semiannual Reports to Congress.
This is our eleventh review of denials of FOIA,
Privacy Act of 1974, and I.R.C. § 6103 requests.
The overall objective of this review was to
determine whether the IRS improperly withheld
information requested by taxpayers in writing,
based on the FOIA exemption (b)(3), in
conjunction with I.R.C. § 6103, and/or FOIA
exemption (b)(7) or by replying that responsive
records were not available.
WHAT TIGTA FOUND
The IRS continued to improve the accuracy and
completeness of its responses to requests for
information covered by the FOIA. While
improvement was noted, management needs to
ensure that disclosure personnel continue to
follow required procedures on all requests. In
1.3 percent (1 of 76 cases) of the FOIA/Privacy
Act cases TIGTA reviewed, information was
improperly withheld from the requestors. The
error occurred mainly because of inadequate
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            August 3, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Office of Disclosure Continues to Improve
                              Compliance With the Freedom of Information Act Requirements
                              (Audit #201030023)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) improperly withheld information requested by taxpayers in writing, based on the Freedom
 of Information Act (FOIA) 1 exemption (b)(3), in conjunction with Internal Revenue Code
 (I.R.C.) Section (§) 6103, 2 and/or FOIA exemption (b)(7) or by replying that responsive records
 were not available.
 The Treasury Inspector General for Tax Administration is required to conduct periodic audits to
 determine if the IRS properly denied taxpayers’ written requests for tax account information.
 We are also required to include the results in one of our Semiannual Reports to Congress. This
 is our eleventh review of denials of FOIA, Privacy Act of 1974, 3 and I.R.C. § 6103 requests.
 Although we made no recommendations in this report, we did provide IRS officials an
 opportunity to review the draft report. The IRS did not have any written comments in response
 to the report.

 Copies of this report are also being sent to the IRS managers affected by the report. Please
 contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant Inspector
 General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.



 1
   5 U.S.C.A. § 552 (2008).
 2
   I.R.C. § 6103 (2009).
 3
   5 U.S.C. § 552a (2008).
                          The Office of Disclosure Continues to Improve Compliance
                             With the Freedom of Information Act Requirements




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Internal Revenue Service’s Inventory Backlog Continues to
          Decrease........................................................................................................Page 4
          The Percentage of Improperly Denied Freedom of Information
          Act/Privacy Act Requests for Information Has Remained Constant............Page 5
          The Disclosure Office Responded Timely to All Freedom of
          Information Act and Privacy Act Cases Reviewed.......................................Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measures...............................................................Page 14
          Appendix V – Prior Treasury Inspector General for Tax
          Administration Freedom of Information Act Reports ..................................Page 16
         The Office of Disclosure Continues to Improve Compliance
            With the Freedom of Information Act Requirements




                      Abbreviations

FOIA               Freedom of Information Act
FY                 Fiscal Year
I.R.C.             Internal Revenue Code
IRS                Internal Revenue Service
SB/SE              Small Business/Self-Employed
                      The Office of Disclosure Continues to Improve Compliance
                         With the Freedom of Information Act Requirements




                                            Background

Statutory requirements
The Internal Revenue Service (IRS) Restructuring and Reform Act of 1998 1 requires the
Treasury Inspector General for Tax Administration to:
        . . . conduct periodic audits of a statistically valid sample of the total
        number of determinations made by the Internal Revenue Service to deny
        written requests to disclose information to taxpayers on the basis of
        section 6103 2 of this title 3 or section 552(b)(7) of title 5, United States
        Code. 4
The three primary laws that govern the types of requests for information reviewed in this audit
are:
The Freedom of Information Act (FOIA) requires Federal         The FOIA requires agencies
Government agencies to make records available to the public       to make records of the
upon request unless specifically exempted. Information that is      Federal Government
“specifically exempted from disclosure by statute” is one of       available to the public
                                                                    upon request unless
the exemptions. Internal Revenue Code (I.R.C.)                     specifically exempted.
Section (§) 6103 is an example of such a statute; it protects
the confidentiality of tax returns and return information.
Records or information compiled for law enforcement purposes are also exempt from disclosure
under the FOIA.
The Privacy Act of 1974 5 prohibits Federal Government agencies from relying on any
exemption in the Privacy Act to withhold records that are otherwise available to an individual
under the FOIA.
I.R.C. § 6103, while protecting the confidentiality of taxpayers’ returns and return information,
does allow the taxpayer, or a person designated by the taxpayer, to request and receive the
taxpayer’s specific documents and information.


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.). The requirements for
this audit are in Section (§) 1102 (d)(3)(A) of the statute.
2
  Internal Revenue Code § 6103 (2009).
3
  26 U.S.C. (2009).
4
  Freedom of Information Act, 5 U.S.C.A. § 552 (2008).
5
  U.S.C. § 552a (2008).
                                                                                                          Page 1
                      The Office of Disclosure Continues to Improve Compliance
                         With the Freedom of Information Act Requirements



IRS processing and reporting of FOIA cases
Within the IRS, the Small Business/Self-Employed Division (SB/SE) Office of Communications,
Liaison, and Disclosure (through its Governmental Liaison and Disclosure Branch) is responsible
for ensuring compliance with the FOIA, the Privacy Act, and I.R.C. § 6103 is timely. The Office
of Disclosure within the Governmental Liaison and Disclosure Branch sets policy and issues
instructions, guidelines, and procedures to ensure compliance with the disclosure statutes.
The Disclosure offices within the SB/SE Division processed the FOIA and Privacy Act requests
and the I.R.C. § 6103 requests received by the IRS through September 2009. In its FOIA Annual
Report for Fiscal Year (FY) 2009, the IRS reported that a total of 14,507 FOIA/Privacy Act
cases were processed. This represents a decrease of 7 percent from the 15,590 FOIA/Privacy
Act cases processed during FY 2008. The IRS attributes this decrease to:
    •   A decrease in the number of frivolous requests.
    •   An increase in IRS employee awareness of what types of documents can be released to
        taxpayers without formal FOIA/Privacy Act requests.
    •   Taxpayers being able to receive more information from IRS web sites without having to
        make formal requests.
According to the United States Department of the Treasury Freedom of Information Act Annual
Report to the Attorney General for FY 2009, the IRS denied or partially denied information to
requestors in 2,324 (16 percent) of the 14,507 FOIA/Privacy Act cases processed in FY 2009. It
advised requestors that there were no records responsive to requests in 1,463 (10.1 percent) of
the 14,507 cases. The remaining cases were either granted in full or closed for miscellaneous
reasons, such as the request was improper or had been previously granted.

Audit limitations and standards
Individual IRS Disclosure offices, or other IRS offices having custody of the records, processed
written requests for information made under I.R.C. § 6103. While the IRS is not required to
track all requests made under I.R.C. § 6103, it has elected to do so for requests received by its
Disclosure offices. Disclosure offices used the IRS Electronic-Disclosure Information
Management System to track requests made under both the FOIA and the Privacy Act for
FY 2009. Requests made under I.R.C. § 6103 that were received and processed by IRS offices
other than Disclosure offices are neither controlled on the Electronic-Disclosure Information
Management System 6 nor otherwise inventoried. Consequently, the volume of these requests is
not known. As a result, we can statistically sample only the I.R.C. § 6103 requests processed



6
  The primary automated information system used by Governmental Liaison and Disclosure Branch staff for
inventory tracking, work planning, statistical management reports, daily time tracking, etc.
                                                                                                          Page 2
                   The Office of Disclosure Continues to Improve Compliance
                      With the Freedom of Information Act Requirements



directly by IRS Disclosure offices and tracked on the Electronic-Disclosure Information
Management System.
Beginning in February 2006, the responsibility for processing some requests for I.R.C. § 6103
tax compliance checks and transcripts was transferred from the SB/SE Division Disclosure
offices to the Wage and Investment Division Return and Income Verification Services Units.
The SB/SE Division continues to process the FOIA and Privacy Act requests for information.
The transfer of responsibility for processing tax compliance checks and transcripts to the Return
and Income Verification Services Units resulted in an increase in our scope limitation for this
and future years’ audits because the Wage and Investment Division does not record the
I.R.C § 6103 cases on the Electronic-Disclosure Information Management System. We reviewed
only those requests processed by the SB/SE Division Disclosure offices that were denied during
the period October 1, 2008, through September 30, 2009. During this 12-month period, IRS
Disclosure offices processed approximately 14,983 requests made under I.R.C. § 6103.
This review was performed at the SB/SE Division Governmental Liaison and Disclosure Branch
in New Carrollton, Maryland, during the period December 2009 through April 2010. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                          Page 3
                      The Office of Disclosure Continues to Improve Compliance
                         With the Freedom of Information Act Requirements




                                      Results of Review

Overall, the IRS continued to reduce its inventory backlog and improved its service to persons
who requested information under the FOIA/Privacy Act based on the sample of cases we
reviewed. The IRS improperly withheld information from requestors in only 1 (1.3 percent) of
the 76 FOIA/Privacy Act cases reviewed. In addition, the IRS adhered to legal requirements
under I.R.C. § 6103 in all but ********1*********of the 247 sample cases we reviewed. The
Disclosure offices responded timely to all the requestors in the 76 cases sampled.

The Internal Revenue Service’s Inventory Backlog Continues to
Decrease
Ultimately, the IRS relies on its disclosure personnel to ensure requests under the FOIA are
handled timely and in accordance with laws and regulations. At the top of the agency, a broad
policy statement and the Internal Revenue Manual provide guidance nationwide to disclosure
personnel. The policy statement, among other things, affirms the IRS’ commitment to full
compliance with the FOIA and administering it in a manner consistent with “the fundamental values
held by our society, including public accountability, safeguarding national security, enhancing the
effectiveness of law enforcement agencies and the decision-making processes, protecting sensitive
business information, and protecting personal privacy.”
Besides providing assurances that FOIA requests are handled timely and in accordance with laws
and regulations, the IRS continues its efforts in carrying out its responsibilities to reduce
inventory backlog under the Government-wide Improving Agency Disclosure of Information
initiative. While data are not available on the precise impact the initiative is having on
improving the disclosure of information, statistics from the Disclosure Office show the IRS has
continued to improve in its reduction of the backlogs of FOIA requests. On September 30, 2009,
182 cases were in backlog. This represents a 45 percent decrease in backlog cases from
FY 2008. Reducing backlog is particularly important because it is designed to address the
primary reason response time periods are not met under the FOIA. In FY 2010, the goal of the
IRS is to reduce its backlog by 10 percent or to 164 cases. On September 30, 2009, 182 cases
were in backlog, and as of March 25, 2010, there were 153 cases in backlog. This represents a
16 percent decrease in backlog since the beginning of the year. 7 Figure 1 shows the reduction of
backlogged FOIA requests from FY 2007 through FY 2010, as of March 25.


7
 This percentage was calculated by determining the difference between the 182 cases in the beginning inventory
and the 153 cases in inventory as of March 25, 2010. We then took the difference of 29 and divided it by 182 (the
beginning inventory), which equates to .1593, or 16 percent.
                                                                                                           Page 4
                               The Office of Disclosure Continues to Improve Compliance
                                  With the Freedom of Information Act Requirements



                      Figure 1: Reduction of Backlogged FOIA Requests
                                                               Goal
                                                       1000    949

                                                       900

                                                       800
                       Number of Backlogged Requests




                                                                                Goal
                                                       700            Actual    605
                                                                       545
                                                       600

                                                       500
                                                                                       Actual
                                                       400                                       Goal
                                                                                        331
                                                                                                 298
                                                       300                                              Actual       Goal Actual
                                                                                                         182         164 153
                                                       200

                                                       100

                                                         0
                                                              FY 2007          FY 2008          FY 2009          FY 2010 as of
                                                                                                                    3/25/10
                                                                                    Fiscal Year


                  Source: IRS Disclosure Office.

The Percentage of Improperly Denied Freedom of Information
Act/Privacy Act Requests for Information Has Remained Constant
The IRS was consistent in its service to persons who requested information under the
FOIA/Privacy Act and I.R.C. § 6103 based on the sample of cases we reviewed. The IRS
improperly withheld information from requestors in 1 (1.3 percent) of the 76 FOIA/Privacy Act
cases and in ******1*****of the 247 I.R.C. § 6103 cases we sampled. As a result, we estimate
the Disclosure offices did not provide available tax records for 38 requests made under the
FOIA/Privacy Act and for 60 requests made under I.R.C. § 6103. 8
We analyzed the one FOIA/Privacy Act case for which information was improperly withheld and
determined the types of information improperly withheld have remained relatively consistent


8
 These point estimates are susceptible to the possibility of a relatively large amount of random error because of the
small sample size and the rarity of incorrect denials. Our statistical projections are that the FOIA/Privacy Act errors
are in the 2 to 177 range and that the I.R.C. § 6103 errors are in the 3 to 286 range. See Appendix IV for details.
                                                                                                                                   Page 5
                                                        The Office of Disclosure Continues to Improve Compliance
                                                           With the Freedom of Information Act Requirements



with the type of information identified as improperly withheld during the previous audit periods.
The most common types of information withheld were miscellaneous IRS forms and documents
associated with tax transcript information.
Errors occurred mainly because of inadequate research or simple oversight by Disclosure office
caseworkers. For the one FOIA case ******1****************************************
************************************1***************************************.
Figure 2 shows the audit results for FYs 2000 through 2010.
   Figure 2: Improperly Withheld FOIA/Privacy Act and I.R.C. § 6103 Requests
  Identified in Treasury Inspector General for Tax Administration Audit Reports
                                  by Fiscal Year
                16

                                                                                                            14.6%                                    14.5%
                14


                12                                                              12.2%
         Percentage of Improper Denials




                                                            10.7% 10.6%
                10
                                                                                                  9.3%
                                                8.8%
                                  8
                                                                                   7.4%                               7.1%
                                                                   7.0%
                                                      6.3%                                                                         6.1%
                                  6

                                                                                                     4.4%                                         4.6%
                                  4                                                                                                                               3.7%
                                                                                                                             3.1%
                                                                                                                                               2.3%
                                  2
                                                                                                                                                                              1.3% 1.3%***1***
                                                                                                                                                                         0.0%     0%
                                  0


                                                 00           01           02             0   3            04          05            0   6             07           08           09          10
                                               20           20           20            20                20          20           20                 20           20           20          20
                                          FY           FY           FY            FY                FY          FY           FY                 FY           FY           FY          FY
                                                                                                                Fiscal Year

                                                                                                  FOIA/Privacy Act                           I.R.C. 6103

       Source: Treasury Inspector General for Tax Administration audit reports issued in FYs 2000 through
       2010. Percentages were rounded to the nearest tenth.

Because the IRS improperly denied available records, the taxpayers’ rights could have been
violated, the taxpayers could have been burdened unnecessarily, and the IRS may have incurred
additional costs through the appeals process. For FOIA requests, if the IRS reports that no
applicable records exist or denies any part of the request, the requestor may administratively
                                                                                                                                                                                                  Page 6
                      The Office of Disclosure Continues to Improve Compliance
                         With the Freedom of Information Act Requirements



appeal the IRS’ decision. If the IRS denies the administrative appeal, the requestor has the right
to appeal the denial in court. Preparing and processing the appeals would place additional
burden on the requestor and additional costs on the IRS.
During FY 2009, the IRS processed 223 FOIA/Privacy Act appeals.91 The Office of Appeals
completely upheld the Disclosure office’s decision to deny records in 220 cases and partially
reversed 1 denial. In the remaining two FOIA cases, the cases were closed for other reasons. In
the one FOIA case for which the IRS improperly withheld records in our sample, the requestor
did not appeal. Had this taxpayer used the appeals process, the improper determinations might
have been discovered and reversed.
Taxpayers have no provisions to appeal under I.R.C. § 6103 if the IRS fully or partially denies
requests for information or if the IRS reports no records are available. Taxpayers could incur
additional burden if they decided to request the information again, and the IRS would incur
additional costs to process these requests.

The Disclosure Office Responded Timely to All Freedom of
Information Act and Privacy Act Cases Reviewed
The FOIA requires Federal Government agencies to respond within 20 business days of the
receipt of a request or, if the 20 days are not sufficient, to notify the requestor of the reason why
the request cannot or will not be filled. Federal Government agencies are required to
immediately notify the requestor if they are unable to respond to the request within the time
limit, the reasons why they are unable to respond, and of the requestor’s right to appeal.
The due date for a FOIA request is revised when the IRS sends a letter to the requestor
exercising its right for an automatic 10-day extension and/or requesting a voluntary extension in
excess of the initial statutory 20-day period for FOIA requests. The requestor must agree to the
voluntary extension, and the IRS must notify the requestor of its ability to respond by the end of
the extension period. A case is untimely when the IRS responds to the requestor after the due
date. For Privacy Act cases, the IRS must respond within 30 business days of the taxpayer’s
request.
Since FY 2000, the IRS has made significant improvement in the timeliness of responses to
FOIA/Privacy Act requests. In our audits over the previous 10 years, the percentages of
untimely responses ranged from 1.2 percent to 43.5 percent. The increase in responsiveness may
be due, in part, to the continued decrease in the numbers of FOIA and Privacy Act cases received
during FY 2009 compared to FY 2008 and the prior years this review has been conducted.
Figure 3 shows the percentages of untimely cases we have reported since FY 2000.


91
 United States Department of the Treasury Freedom of Information Act Annual Report to the Attorney General for
FY 2009.
                                                                                                       Page 7
                                                    The Office of Disclosure Continues to Improve Compliance
                                                       With the Freedom of Information Act Requirements



   Figure 3: Comparison of Untimely FOIA/Privacy Act Responses Identified in
  Treasury Inspector General for Tax Administration Audit Reports by Fiscal Year

                                              50%

                                              45%                          43.5%
           Percentage of Untimely Responses




                                              40%
                                                     33.8%
                                              35%

                                              30%

                                              25%                  22.7%
                                                           20.1%
                                              20%

                                              15%                                  13.1%

                                              10%
                                                                                           7.3%
                                              5%                                                  2.3%   1.2%   1.3%
                                                                                                                       0.0%
                                              0%
                                                     FY     FY      FY      FY      FY      FY     FY     FY     FY     FY
                                                    2000   2001    2002    2003    2005    2006   2007   2008   2009   2010
                                                                                   Fiscal Year

        Source: Treasury Inspector General for Tax Administration audit reports issued in FYs 2000
        through 2010. Percentages were rounded to the nearest tenth.102

To their credit, the Disclosure offices responded to the requestor in the time required by law for
each of the 76 FOIA/Privacy Act requests sampled.




102
  We did not evaluate the timeliness of responses to FOIA and Privacy Act requests in the FY 2004 audit because
the IRS was in the process of implementing our recommendations to improve timeliness.
                                                                                                                              Page 8
                      The Office of Disclosure Continues to Improve Compliance
                         With the Freedom of Information Act Requirements



                                                                                              Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS improperly withheld
information requested by taxpayers in writing, based on the FOIA 1 exemption (b)(3), in
conjunction with I.R.C. § 6103, 2 and/or FOIA exemption (b)(7) or by replying that responsive
records were not available. To accomplish this objective, we:
I.      Identified any changes to the policies, operating procedures, systems, documents/files,
        risks, laws, and regulations related to the receipt, disposition, and resolution or denials of
        requests for information under the FOIA occurred since last year’s review.
II.     Identified the management controls that are in place to ensure the timely and proper
        receipt, disposition, and resolution or denials of requests for information under the FOIA.
III.    Determined whether the IRS properly adhered to statutory FOIA and Privacy Act 3
        requirements, as well as procedural requirements. 4
        A. Obtained a national extract from the national Electronic-Disclosure Information
           Management System 5 for the period October 1, 2008, through September 30, 2009,
           and identified 2,911 FOIA and Privacy Act cases closed as denied or partially denied
           based on FOIA exemption (b)(3) in conjunction with I.R.C. § 6103, FOIA exemption
           (b)(7), or for which the IRS replied that responsive records did not exist. We
           validated the data extract by performing specialized queries.
        B. Designed an attribute sample based on a 90 percent confidence level, an expected
           error rate of 6.48 percent, and an estimated precision of ±5 percent. Based on these
           parameters, a statistically valid sample size was 66 cases. This sampling
           methodology was chosen so we could project the number of cases for which
           information was improperly withheld to the universe of cases that were partially or
           fully denied based on FOIA exemption (b)(3), in conjunction with I.R.C. § 6103,
           and/or FOIA exemption (b)(7), or for which requestors were told records were not
           available. We increased the attribute sample size from 66 cases to 76 cases to



1
  5 U.S.C.A. § 552 (2008).
2
  Internal Revenue Code § 6103 (2009).
3
  U.S.C. § 552a (2008).
4
  This sub-objective addresses the mandatory review for FOIA, Privacy Act, and I.R.C. § 6103 requests.
5
  The primary automated information system used by Governmental Liaison and Disclosure Branch staff for
inventory tracking, work planning, statistical management reports, daily time tracking, etc.
                                                                                                          Page 9
                 The Office of Disclosure Continues to Improve Compliance
                    With the Freedom of Information Act Requirements



         account for the possibility that some case files would be unavailable. For the
         76 randomly selected cases requested, we received all case files.
      C. Reviewed the 76 sampled cases and determined whether the decision to withhold
         information was appropriate, the record search was adequate, and the determination
         was made in a timely manner.
      D. Projected the number of improper withholdings in the range of 2 to 177 (.067 percent
         to 6.09 percent) for FOIA/Privacy Act cases that were partially or fully denied based
         on FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA
         exemption (b)(7), or for which requestors were told records were not available. The
         projection was made using attribute sampling, with a 90 percent confidence level and
         an actual error rate of 1.3 percent. As a result, the actual precision factor was
         ±1.66 percent. The accuracy of our projection was reviewed and confirmed by our
         contracted statistician.
      E. Discussed all exception cases with Disclosure office personnel.
      F. Determined whether the requestor appealed the denial for the exception case
         identified.
      G. Reviewed the United States Department of the Treasury Freedom of Information Act
         Annual Report to the Attorney General for FY 2009 showing various statistics for
         FOIA/Privacy Act cases, including appeals and closures. This information was not
         independently verified because the accuracy of these statistics did not affect the
         accomplishment of our audit objective.
IV.   Determined whether the IRS Disclosure offices are adhering to legal requirements when
      denying written requests received from taxpayers under I.R.C. § 6103.
      A. From the national extract obtained for Step III. A., identified 14,983 I.R.C. §§ 6103
         (c) and (e) requests.
      B. Designed an attribute sample based on a 90 percent confidence level, an expected
         error rate of 6.93 percent, and an estimated precision of ±5 percent. Based on these
         parameters, the size of the statistically valid sample was 70 cases. This sampling
         methodology was chosen because it would allow us to project the number of cases for
         which information was improperly withheld to the universe of closed I.R.C. §§ 6103
         (c) and (e) requests for which information was partially or fully denied or for which
         the IRS replied that responsive records did not exist. We selected a larger sample size
         to account for the possibility that some case files would be unavailable.
      C. Selected a random sample of 400 of the 14,983 I.R.C. §§ 6103 (c) and (e) closed
         cases, requested case files for 400 cases from the IRS, and received 247 case files.
         We determined that 70 (28.3 percent) of the 247 cases included instances for which

                                                                                          Page 10
                   The Office of Disclosure Continues to Improve Compliance
                      With the Freedom of Information Act Requirements



           information was partially or fully denied or for which the IRS replied that responsive
           records did not exist.
       D. Reviewed the 70 cases and determined whether the decision to withhold the
          information based on I.R.C. § 6103 was appropriate.
       E. Projected the number of improper withholdings in the range of 3 to 281 (.074 percent
          to 6.620 percent) for the I.R.C. §§ 6103 (c) and (e) requests for which information
          was partially or fully denied or for which the IRS replied that responsive records did
          not exist. The projection was made using attribute sampling, with a 90 percent
          confidence level and an actual error rate of 0.4 percent. As a result, the actual
          precision factor was ±0.51 percent.
       F. Discussed all exception cases with Disclosure office personnel.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, operating procedures,
systems, laws, and regulations related to the receipt, disposition, and resolution or denials of
requests for information under the FOIA to evaluate whether the IRS improperly withheld
information requested by taxpayers in writing. We evaluated these controls by reviewing source
materials, interviewing management, and reviewing a sample of closed FOIA, Privacy Act, and
I.R.C. § 6103 cases.




                                                                                          Page 11
                  The Office of Disclosure Continues to Improve Compliance
                     With the Freedom of Information Act Requirements



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Carole Connolly, Acting Audit Manager
Donna Saranchak, Lead Auditor
Cynthia Dozier, Senior Auditor
Joan Floyd, Senior Auditor
Sharon Summers, Senior Auditor
Erlinda Foye, Management Auditor




                                                                                      Page 12
                  The Office of Disclosure Continues to Improve Compliance
                     With the Freedom of Information Act Requirements



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Governmental Liaison and Disclosure, Small Business/Self-Employed Division
SE:S:CLD:GLD
Chief, Disclosure Branch, Small Business/Self-Employed Division SE:S:CLD:GLD:D
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 13
                       The Office of Disclosure Continues to Improve Compliance
                          With the Freedom of Information Act Requirements



                                                                                                   Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that the results of our
audit will have on tax administration. These benefits will be incorporated into our Semiannual
Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights – Potential; 38 responses to FOIA 1 or Privacy Act of 1974 2 requests for
    which information was improperly withheld during the 12-month period October 1, 2008,
    through September 30, 2009 (see page 5).

Methodology Used to Measure the Reported Benefit:
The attribute sample of 76 cases was randomly selected from the universe of
2,911 FOIA/Privacy Act requests closed nationally during the period October 1, 2008, through
September 30, 2009, as 1) a full or partial denial with either FOIA exemption (b)(3), in
conjunction with I.R.C. § 6103, 3 and/or FOIA exemption (b)(7) cited as one of the reasons for
withholding information or 2) a request for which the IRS replied that responsive records did not
exist.
We found ****1***** 4 **** for which the IRS improperly withheld information requested by
the taxpayer. We arrived at the estimate by multiplying the number of requests closed as 1) or 2)
as listed in the prior paragraph by the error rate of cases identified in our sample
(2,911 x 1.3 percent error rate = 38 cases). A case was considered an “error” if a Disclosure
office improperly withheld information that was available and could have been released under
the FOIA and/or the Privacy Act.

Type and Value of Outcome Measure:
•   Taxpayer Rights – Potential; 60 responses to I.R.C. § 6103 requests for which information
    was improperly withheld during the 12-month period October 1, 2008, through
    September 30, 2009 (see page 6).

1
  5 U.S.C.A. § 552 (2008).
2
  5 U.S.C. § 552a (2008).
3
  I.R.C. § 6103 (2009).
4
  These point estimates are susceptible to the possibility of a relatively large amount of random error because of the
small sample size and the rarity of incorrect denials. Our statistical projections are that the FOIA/Privacy Act errors
are in the 2 to 177 range.
                                                                                                              Page 14
                        The Office of Disclosure Continues to Improve Compliance
                           With the Freedom of Information Act Requirements



Methodology Used to Measure the Reported Benefit:
The attribute sample was randomly selected from the universe of I.R.C. §§ 6103 (c) and (e)
requests closed nationally during the period October 1, 2008, through September 30, 2009. The
Disclosure offices are not required to input a disposition code showing how I.R.C. § 6103 cases
are closed (granted, denied, etc.). We arrived at the estimate by:
    •    Identifying 14,983 closed I.R.C. §§ 6103 (c) and (e) requests.
    •    Requesting a random sample of 400 cases; we received 247 cases. We reviewed the
         247 cases received in order to obtain a sample of 70 cases of denied, partially denied, or
         no requested record available cases closed during the period October 1, 2008, through
         September 30, 2009.
    •    We found ****1************ 5 of 247 cases for which the IRS improperly withheld
         information requested by the taxpayer. We arrived at the estimate by multiplying the
         total number of closed requests in the audit universe by the error rate for the 247 cases
         reviewed (14,983 x 0.4 percent error rate = 60 cases).




5
  These point estimates are susceptible to the possibility of a relatively large amount of random error because of the
small sample size and the rarity of incorrect denials. Our statistical projections are that the I.R.C. § 6103 errors are
in the 3 to 286 range.
                                                                                                               Page 15
                  The Office of Disclosure Continues to Improve Compliance
                     With the Freedom of Information Act Requirements



                                                                             Appendix V

     Prior Treasury Inspector General for Tax
 Administration Freedom of Information Act Reports

Taxpayers Should Be Provided Timely Service When Appealing Denied Requests Under the
Freedom of Information Act (Reference Number 2000-10-116, dated August 15, 2000).
The Internal Revenue Service Should Continue Taking Action to Improve Compliance With the
Freedom of Information Act and Related Procedures (Reference Number 2001-10-112, dated
July 25, 2001).
Actions Should Continue to Be Taken to Improve Compliance With the Freedom of Information
Act and Related Procedures (Reference Number 2002-10-093 dated May 20, 2002).
Opportunity for Improvement Exists for Compliance With the Freedom of Information Act and
Related Procedures (Reference Number 2003-10-164, dated August 22, 2003).
Improvements Are Needed to Ensure Compliance With the Freedom of Information Act
(Reference Number 2004-40-064, dated March 30, 2004).
Some Improvements Have Been Made to Better Comply With Freedom of Information Act
(Reference Number 2005-10-089, dated May 26, 2005).
Compliance With Freedom of Information Act Requirements Has Increased (Reference Number
2006-10-129, dated August 31, 2006).
The Office of Disclosure Can Improve Compliance With the Freedom of Information Act
Requirements (Reference Number 2007-10-133, dated August 31, 2007).
The Office of Disclosure Continued to Improve Compliance With the Freedom of Information
Act Requirements (Reference Number 2008-30-164, dated August 29, 2008).
The Office of Disclosure Continues to Improve Upon Its Response to Taxpayers’ Requests Under
the Freedom of Information Act (Reference Number 2009-30-115, dated September 4, 2009).




                                                                                      Page 16
